or similar activity or transaction. Such transactions include, but are
not limited to, any quasi-cash or online gambling transaction, any
electronic commerce transaction conducted over an open network,
and any betting transaction including the purchase of lottery tickets
or casino gaming chips/checks or off-track betting or wagering.
Display of a payment card logo by an online merchant or acceptance
of a Visa Card by an online merchant does not necessarily mean that
the transaction is legal in the jurisdiction in which you are located.
In the event that a charge or transaction described in this paragraph
is processed, you will still be responsible for such charges. Any such
illegal or other prohibited use constitutes an unauthorized use and
can result in cancellation and termination of your Account. You agree,
should illegal use occur, to waive any right to sue us in connection
with such illegal use and to indemnify and hold us harmless from
any action or liability, including attorney’s fees and costs, directly or
indirectly arising out of such illegal use.
22. REWARDS PROGRAM.
(a) Reward Points. If you are enrolled in the Rewards Program for
your Account, Rewards points will only apply to net Purchases
(Purchases minus returns and/or credits). Every dollar in
qualifying Purchases, net of returns, charged to the Account
earns one Participant Point (“Point”). No points are earned
for finance charges, fees, Balance Transfers, Cash Advances,
Convenience Checks, Foreign Transaction fees, insurance
charges or other items posted to the Account.
(b) Loss of Accumulated Reward Points. Accumulated Rewards
Points will be lost should any of the following occur: (i) we have
reason to believe illegal activity has occurred or is occurring
on your Account; (ii) your Account becomes 90 or more days
delinquent; or (iii) you or the Joint holder of this Account
causes HawaiiUSA to suffer a loss. In addition, Points earned
in calendar year one will expire as of the last day of calendar
year five. (For example, points earned in 2010 will expire on
December 31, 2014.)
(c) Rewards Redemption. For travel related redemption, call toll
free (800) 900.6160. For merchandise redemption, send your
order form to: CURewards Awards HQ 2440 West 34th Street,
Chicago, IL 60608-5134. The website to view the available
merchandise is: www.curewards.com. Redemption is subject
to availability.
(d) Program Rules. A complete set of Program Rules may be
obtained at the CURewards website, through the HawaiiUSA
website, http://hawaiiusafcu.com, or by contacting HawaiiUSA
at (808) 534.4300, or toll free at (800) 379.1300.
(e) Termination. We reserve the right to terminate the Program
at any time upon providing any notice required by applicable
law. If terminated, we shall not be responsible or liable for any
points you have earned and did not use prior to the end of the
Program. Also, if your Account is closed for any reason, any
unused accrued points will be forfeited.
23. CREDIT INFORMATION. You warrant that the information on
any credit application that you have given us to get your Account or
Card is correct. We may retain your application. You agree to notify
us immediately if any information on your application becomes
incorrect, including a change in your name, address, employment or
financial status. You authorize us to investigate your credit standing
when opening, renewing, or reviewing your Account. You authorize
us to disclose information regarding your Account and our credit
9

experience with you to credit bureaus and others to the extent
permitted by law. You understand and agree that we may make
changes to the terms of your Account based on information in your
credit history. You understand that it is a violation of section 1014,
title 18, US Code, to make false statements or over-value security for
the purpose of influencing the action of any federally insured credit
union, including HawaiiUSA.
24. DEFAULT. You will be in default if: (1) you do not pay at least the
Minimum Payment Due or other required payment by the Payment
Due Date; (2) you violate any of the terms of this Agreement;
(3) your creditworthiness is impaired; (4) you make any false or
misleading statements in any credit application, credit update or
other communication to us; or (5) you die, are declared incompetent
or mentally incapacitated, become insolvent, or are the subject of
bankruptcy or receivership proceedings. You agree to inform us if
you become aware of any event or condition that may constitute a
default as described in this paragraph. We have the right to demand
immediate payment of the entire Account Balance if you default,
subject to our giving you any notice required by law.
25. CLOSING OR SUSPENDING YOUR ACCOUNT; ACCELERATION. If
you default, you understand and agree that we have the right to
temporarily or permanently suspend any and all Account and Card
privileges, and/or we may demand immediate payment of the
Account Balance. We may close or suspend your Account at any
time, without notifying you, as permitted by law. We are not liable
to you for any transactions that are denied due to our decision to
close, suspend or terminate your Account. You agree that you will
not attempt to make a Purchase or obtain a Cash Advance after you
have been notified that your privilege to use your Account has been
terminated. You may close your Account at any time by notifying us
in writing, and you must return all Cards that were issued for your
Account. If we close or suspend your Account, or if you close your
Account, you understand and agree that you remain obligated to
repay the entire Account Balance. You understand and agree that
interest charges at the APR as permitted under this Agreement will
continue to accrue until you repay your entire Account Balance.
26. COLLECTION COSTS. To the extent permitted by law, you are liable to
us for our legal costs if we refer collection of your Account to an attorney
who is not our salaried employee. These costs may include reasonable
attorneys’ fees, as well as costs and expenses of any legal action.
27. LIABILITY FOR UNAUTHORIZED USE. If you notice the loss or theft
of your Card, PIN or Account number, you should call us immediately
at 1.800.654.7728, or write to us at: Credit Card Security Department,
P.O. Box 31112, Tampa, FL 33631-3112. Telephoning is the best way of
keeping your possible losses down.
You will not be liable for any unauthorized use that occurs after you
notify us. You may, however, be liable for unauthorized use that occurs
before your notice to us. In any case, your liability will not exceed
$50. Subject to investigation, verification of your claim, and account
standing and history, you will have no liability for unauthorized
Purchases made with your Card through Visa, unless you acted with
gross negligence or fraud, or delayed in reporting unauthorized
use. You agree that in the event of a lost, stolen, not received or
counterfeited card or fraudulent activity on your Account, you and
all parties given access to the Account will complete an affidavit of
forgery in a form approved by the Credit Union. You also agree to
assist us in determining the facts, circumstances, and other pertinent
information related to any loss, theft or possible unauthorized use
of your Card, PIN or Account number and to comply with such other
procedures as we may require in connection with our investigation.
10

You are responsible for the safekeeping of your Card, PIN, and
Account number.
28. STATEMENTS. Your Card or other Account activity will be
reflected on your Statement. We will send you a Statement for
each Billing Period in which Transaction activity has occurred on
your Account. Your Statement will identify the merchant, electronic
terminal, or financial institution at which transactions were made,
but sales, Cash Advance, credit, or other receipts cannot be returned
with the Statement. You agree to retain copies of such receipts
furnished at the time of the transaction in order to reconcile your
Statement. If you request a copy of any sales raft or similar document,
a Statement fee of $5.00 may be imposed by us. This fee will not be
imposed, however, if it was requested in connection with a billing
error. Statements will be mailed or delivered electronically if you
have agreed to receive notices from us in an electronic format.
29. INACTIVE ACCOUNT: If your Account does not have any activity
for twenty-four (24) consecutive months, it will be considered an
inactive account and your ability to take advances against your Credit
Limit may be suspended. If your Account is inactive for twenty-four
(24) consecutive months, we may close it.
30. RETURNS AND ADJUSTMENTS. If a merchant discloses a policy
such as “no returns,” “no refunds,” “no return or credit without
receipt,” “as is,” “store credit only” or “all sales final,” you will be
bound by that policy when you use your Card to buy goods or services
from that merchant. A merchant refund to your Account will post to
your Account as a credit. We do not control when a merchant sends
an Account credit. We will choose how to apply the credit to your
existing Account Balance. If a credit fails to post to your Account, you
may request our help in having the credit applied to your Account by
sending us a copy of the credit receipts until the credit is properly
applied to your Account. If your credits and payments exceed what
you owe us, we will hold and apply this credit balance against future
Transactions, or if it is $1.00 or more, refund it on your written
request or automatically after six (6) months.
31. DISPUTES WITH MERCHANTS. We are not responsible for the
refusal of any merchant or financial institution to honor your Card. If
you have a dispute with a merchant or financial institution, you must
make a good faith attempt to resolve the dispute with the merchant
or financial institution. If you cannot do so, you must send written
notice of the dispute to Customer Service, P.O. Box 31112, Tampa, FL
33631-3112 and to the merchant or financial institution. We will then
investigate the dispute and take such action as required under the
Federal Truth in Lending Act.
32. INVESTIGATIONS. You agree to cooperate fully with the
investigation of any merchant dispute or unauthorized transaction
regarding your Account, to file complete and truthful reports with
criminal law enforcement agencies, and to give complete and truthful
testimony. At our request, you agree that (1) we will be subrogated
to, and you shall assign to us, all rights that you have against any
merchant, financial institution, or unauthorized user, (2) you will
do whatever is necessary to enable us to exercise our rights and
will cooperate with us, and (3) you will not prejudice our rights. You
further agree that we have the right to reverse any credits that we
apply, and that you will indemnify and hold us harmless with respect
to any dispute, to the full extent permitted by law.
33. CHANGE OF TERMS. This Agreement is the contract that
applies to all Transactions on your Account even though the sales,
cash advance, credit, or other slips you sign or receive may contain
different terms. Subject to applicable law, you understand and agree
11

that we may amend, modify, add to, or delete from this Agreement
any of its terms and conditions, including financial terms, including
rates and fees by providing notice as required by law. The new
terms will apply to your existing Account Balance and all fees and
charges accrued at the time of the change as well as to any future
Transactions, to the extent permitted by applicable law.
34. VISA ACCOUNT UPDATER (VAU). VAU is an account updating
service in which your Card is automatically enrolled. When your
Card expires, is lost or stolen and a new Card is issued, the service
may update relevant Card data (Card numbers and expiration dates)
to appropriate merchants who participate in an effort to facilitate
uninterrupted processing of your recurring charges. This service
provides updates to a Visa database only. The database is accessed
by those qualified merchants seeking your Account information after
you have requested they process a recurring payment or payments.
This service is provided as a free benefit to you. If at any time you
wish to opt-out of the VAU service or if you have any questions,
please call (808) 534.4300 or (800) 379.1300- to do so.
35. NOTICE
(a) To Us. If there is any Notice that you need to give to us, call us
during our business hours at (808) 534.4300 on Oahu, or toll
free at (800) 379.1300, or write to us at: HawaiiUSA Federal
Credit Union, 1226 College Walk, Honolulu, HI 96817-3946.
If you email us, we may not immediately review it. We will not
take action based on email requests until a Credit Union employee
reads the email and has a reasonable opportunity to act. Do not
include any personal or confidential information in any email that
you send to us, whether through online banking or through a
different email provider.
We will never contact you by email, telephone, mail or other type of
correspondence and request your account number, PIN, password,
username, or other access code. If you are contacted by anyone
asking for your account number, PIN, password, username or other
access code, you should refuse and immediately contact us. You may
be the target of identity theft.
(b) To You. If you move, you must give written notice of your new
address. Whenever we are required to give you notice for
something, we will mail it to you at the address we have for
you in our records. If you sign up for electronic statements,
notice may be provided by email. If there is more than one
person on the Account, notice to any one of you constitutes
notice to all of you.
36. APPLICABLE LAW; VENUE. Your Account was approved and
issued in the State of Hawaii, and all extensions of credit are being
made from the State of Hawaii. You agree that the laws of the State
of Hawaii (without regard to conflict of laws provisions) apply to this
Agreement, to the Account and to use of the Card, wherever that
takes place. Any action with respect to this Agreement, the Account
or use of the Card may be brought or transferred to federal or state
courts located in Honolulu, Hawaii.
37. RENEWALS. If you move out of the State of Hawaii, your Account
may not be renewed.

39. SEVERABILITY AND FINAL EXPRESSION. This Agreement is the
final expression of the terms and conditions of your Account. This
Agreement may not be contradicted by evidence of any alleged oral
agreement. If any provision in this Agreement is found to be invalid or
unenforceable, all other provisions shall remain in full force and effect.
40. INTEGRATED DOCUMENTS. Any separate sheet of paper
identified as an “Addendum” or “Amendment” to this Agreement is
an integrated part of the Agreement.
41. BUSINESS DAYS. Our Business Days and hours at our Main Branch
are Monday to Friday, 9:00 am to 5:30 pm, and Saturday, 8:30 am to
2:30 pm. Holidays are not included.
42. COPY RECEIVED. You acknowledge receipt of a copy of this
Agreement and agree to accept its terms.
43. PINK PLATINUM CHARITABLE BENEFITS: This section applies if
you have a Pink Platinum Credit Card Account. Use of the HawaiiUSA
VISA Pink Platinum Credit Card results in donations to charity. We
will donate 0.10% (10 cents for every $100) of all net Purchases
(less returns) made with the Card to charity. We may increase this
amount during promotional periods. We will donate up to $20,000
of net Purchases annually. We have designated the Making Strides
Against Breast Cancer® program of the American Cancer Society as
the current charitable recipient. We reserve the right to change the
charitable recipient or to terminate the charitable program at any
time. No change will affect donations previously made.
44. VISA SHARE SECURED CREDIT CARD: If you have signed a
separate Share Pledge Agreement, you understand and agree that
you are pledging funds now on deposit in a deposit account you have
with us. You understand that you must, at all times, keep a sum equal
to your credit limit on deposit in the designated deposit account
identified on the Share Pledge Agreement until you repay your entire
Account Balance and the Account is closed. You understand and agree
that this security interest will cover future Transactions under this
Agreement. If you default, we may apply the pledged funds to repay
your Account Balance in accordance with federal or other law. You
understand that the APR applicable to your Account does not take into
account the amount pledged in your designated deposit account.
45. ENFORCING THIS AGREEMENT. We will not lose our rights under this
Agreement because we delay in enforcing them or fail to enforce them.
46. MEMBERSHIP REQUIREMENT. You understand and agree that
you must be and remain a member in good standing with us to be
eligible for continuing Account and/or Card privileges, including
future Transactions. You understand and agree that we may suspend
or close the Account and/or Card privileges during any period in
which you do not maintain your membership with us.

If you think there is an error on your Statement, write to us at
Customer Service, P.O. Box 31112, Tampa, FL 33631-3112
In your letter, give us the following information:
•

Account information: Your name and account number.

•

amount: The dollar amount of the suspected error.

•

Description of problem: If you think there is an error on your
bill, describe what you believe is wrong and why you believe it
is a mistake.

You must contact us:
•

Within 60 days after the error appeared on your Statement.

•

At least 3 business days before an automated payment is
scheduled, if you want to stop payment on the amount you
think is wrong.

You must notify us of any potential errors in writing. You may call us,
but if you do, we are not required to investigate any potential errors
and you may have to pay the amount in question.

What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell you that
we received your letter. We also will tell you if we have already
corrected the error.
2. Within 90 days of receiving your letter, we must either correct
the error or explain why we believe the bill was correct.

While we investigate whether or not there has been an error:
•

We cannot try to collect the amount in question, or report you
as delinquent on that amount.

•

The charge in question may remain on your Statement, and we
may continue to charge you interest on that amount.

•

While you do not have to pay the amount in question, you are
responsible for the remainder of your balance.

•

We can apply any unpaid amount against your credit limit.

47. NOTICE. See the statement below for important information
regarding your right to dispute billing errors.
YOUR BILLING RIGHTS: KEEP THIS DOCUMENT FOR FUTURE USE
This notice contains important information about your rights and
our responsibilities under the Fair Credit Billing Act.

38. NONTRANSFERABILITY. You may not transfer or assign your Account
or Card without our prior written consent, which we may withhold in
our sole discretion. We may sell, transfer or assign this Agreement and
your Account to a third party at any time without notifying you.
12

What to Do If You Find a Mistake on Your Statement

13

After we finish our investigation, one of two things will happen:
•

If we made a mistake: You will not have to pay the amount in
question or any interest or other fees related to that amount.

•

If we do not believe there was a mistake: You will have to pay
the amount in question, along with applicable interest and
fees. We will send you a statement of the amount you owe
and the date payment is due. We may then report you as
delinquent if you do not pay the amount we think you owe.
14

If you receive our explanation but still believe your bill is wrong, you
must write to us within 10 days telling us that you still refuse to pay. If
you do so, we cannot report you as delinquent without also reporting
that you are questioning your bill. We must tell you the name of
anyone to whom we reported you as delinquent, and we must let those
organizations know when the matter has been settled between us.

M-123295

If we do not follow all of the rules above, you do not have to pay the
first $50 of the amount you question even if your bill is correct.

Your Rights if You Are Dissatisfied With Your Credit Card Purchases
If you are dissatisfied with the goods or services that you have
purchased with your credit card, and you have tried in good faith to
correct the problem with the merchant, you may have the right not to
pay the remaining amount due on the purchase.
To use this right, all of the following must be true:
1. The purchase must have been made in your home State or
within 100 miles of your current mailing address, and the
purchase price must have been more than $50. (Note: Neither
of these are necessary if your purchase was based on an
advertisement we mailed to you, or if we own the company
that sold you the goods or services.)
2. You must have used your credit card for the purchase. Purchases
made with cash advances from an ATM or with a check that
accesses your credit card account do not qualify.
3. You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still dissatisfied with the
purchase, contact us in writing at Customer Service, P.O. Box 31112,
Tampa, FL 33631-3112.
While we investigate, the same rules apply to the disputed amount as
discussed above. After we finish our investigation, we will tell you our
decision. At that point, if we think you owe an amount and you do not
pay, we may report you as delinquent.

PLATINUM VISA CREDIT CARD
AGREEMENT AND
DISCLOSURE

1226 College Walk,Honolulu, HI 96817-3946

HawaiiUSA Federal Credit Union

HAWAIIUSA FEDERAL CREDIT UNION
1226 College Walk, Honolulu HI 96817-3946

Platinum Visa Credit Card Agreement and Disclosure
Part 1 of 2

Platinum Visa Credit Card Agreement and Disclosure
Part 2 of 2
1. GENERAL. The words “you” and “your” in this Platinum Visa Credit
Card Agreement and Disclosure (“Agreement”) refer to each person
who as Applicant or Joint Applicant has asked us to open a Consumer
Platinum Credit Card Account in his or her name. “We,” “us,” “our”
and “HawaiiUSA” refer to HawaiiUSA Federal Credit Union. The word
“Statement” means the periodic billing statement for your Account,
which we will send you each month. “Billing Period” means the period
of time covered by the Statement.

Interest Rates and Interest Charges
ANNUAL
PERCENTAGE RATE
(APR) for Purchases
APR for
Balance Transfers
APR for
Cash Advances

10.90%
10.90%
10.90%

Paying Interest

Your due date is at least 25 days after the
close of each billing cycle. We will not charge
you interest on purchases and balance
transfers if you pay your entire balance by
the due date each month. We will begin
charging interest on cash advances on the
transaction date.

For Credit Card
Tips from the
Consumer Financial
Protection Bureau

To learn more about factors to consider
when applying for or using a credit card,
visit the website of the Consumer Financial
Protection Bureau at
http://www.consumerfinance.gov/
learnmore.gov/learnmore.

Fees
Annual Fee

None
Balance Transfers

Cash Advances

None

None

Transaction Fees
Foreign Transaction
1.00% of each transaction
Late Payment:

Penalty Fees

Up to $35 or 5% of delinquent amount, whichever is less
Returned Payment:
Up to $24

How We Will Calculate Your Balance: We use a method called “average
daily balance (including new transactions).”
Billing Rights: Information on your rights to dispute transactions and
how to exercise those rights is provided at the end of this Agreement,
in Part 2 of 2
1

You are asking that we: (1) open a consumer Platinum credit card
account at HawaiiUSA in your name (your “Account”); (2) issue you
one or more VISA credit cards (“Card”) for your Account, in your
name, or names, if a joint account; (3) allow you to purchase goods
and services with your Card (your “Purchases”); (4) allow you to
obtain cash advances using your Account (your “Cash Advances”);
and (5) allow you to make balance transfers using your Account
(your “Balance Transfers”). You authorize us to pay and charge
your Account for all transactions (including Purchases, Convenience
Checks, Cash Advances and Balance Transfers) made or obtained by
you or anyone you authorize to use your Card or Account (collectively,
“Transactions”).
You will be obligated to pay all such Transactions charged to your
Account whether resulting from: (1) actual use of your Card; (2) mail
order or telephone, computer, or other electronic transactions made
without presenting the Card; or (3) any other circumstances where
you authorize a charge, or authorize someone else to make a charge,
to your Account. “Account Balance” means all authorized charges, plus
any finance charges assessed on your Account, plus any other fees
and charges which you owe to us under the terms of this Agreement.
In return, by accepting, signing or using your Card after receiving a
copy of this Agreement, you agree to be liable for all Transactions and
charges to your Account; you agree to the terms of this Agreement
and any amendments to this Agreement; and you agree that it will
be binding upon you even if your Account is canceled or terminated.
2. MILITARY LENDING ACT DISCLOSURES. Federal law provides
important protections to members of the Armed Forces and their
dependents relating to extensions of consumer credit. In general, the
cost of consumer credit to a member of the Armed Forces and his
or her dependents may not exceed an annual percentage rate of 36
percent. This rate must include, as applicable to the credit transaction
or account: The costs associated with credit insurance premiums; fees
for ancillary products sold in connection with the credit transaction;
any application fee charged (other than certain application fees for
specified credit transactions or accounts); and any participation
fee charged (other than certain participation fees for a credit card
account).
3. CONSUMER ACCOUNT. You agree that your Account is for consumer
use only, and is established and to be used primarily for personal,
household, or family purposes. We do not have a duty to monitor
your Account for business use. If you use your Account for business
purposes, you agree that the consumer protection provisions of this
Agreement do not apply except to the extent required by law. We
may close your Account if we learn that you are using it for business
2

purposes. If you need a credit card account for business or commercial
use, please contact us to open a business credit card account.

•

a $15.00 Replacement Card Fee for each Card that we issue
to you as replacement for a lost, stolen or damaged Card,
payable at the time your replacement Card is ordered for you;

4. ACCOUNT USE. Your Account use is subject to this Agreement.
All Transactions are subject to our approval. You may use your
Card to purchase goods and services in person, online, and by mail
or telephone from merchants and others who accept Visa credit
cards. In addition, you may obtain Cash Advances from HawaiiUSA,
from other financial institutions or select merchants participating
in the Visa program and from automated teller machines (ATMs)
that provide access to the Visa system. Not all merchants or ATMs
provide such access. You will need to use your Personal Identification
Number (PIN) to obtain a Cash Advance from an ATM. A PIN may be
obtained by calling (888) 886.0083.

•

a Returned Payment Fee of up to $24.00 each time a check
you use to make a payment is returned unpaid (however, the
Returned Payment Fee will not exceed the amount of the
minimum payment due);

This gives us the daily balance. Then, we add up all the daily balances
for the Billing Period and divide the total by the number of days in the
Billing Period. This gives us the average daily balance.

•

a $5 fee each time you request a copy of your billing Statement;

•

a $20 fee per hour or fraction thereof for any research
requested;

From time to time and at our discretion, we may offer introductory
or promotional APRs for all or any part of your Account Balance,
Balance Transfers or future transactions. The period of time for which
the introductory or promotional APR applies may be limited. Any
applicable promotional APR, the corresponding periodic rates, and the
period of time during which they are in effect will appear on the offer.
Any introductory or promotional rate offer will be subject to the terms
of the offer and this Agreement. Any introductory or promotional APR
that we may offer will be separately identified on your Statement as
well as the balances to which these APRs apply. Upon expiration of
the introductory or promotional APR, the APR will be adjusted to the
standard APR and will apply to all outstanding balances.

If you use an ATM not owned by us, you may be charged a fee by
the ATM operator or any ATM network used to complete the transfer
(and you may be charged a fee for a balance inquiry even if you do
not complete a funds transfer). The fee will be debited from your
Account if you elect to complete the transaction or continue with the
balance inquiry.
You may also use your Account to transfer balances from other
creditors, provided that we approve your request.To make a Balance
Transfer, contact any HawaiiUSA branch or obtain a Balance Transfer
authorization form from our website, http://hawaiiusafcu.com.
If you have or are later provided with a PIN, you must not give or
disclose your PIN to others. If you do so, all transactions by such
persons will be deemed authorized by you. (See section below
entitled RESPONSIBILITY.)
5. CREDIT LIMIT: We assign a Credit Limit to your Account. Part of
this Credit Limit may be available for Cash Advances. Your Credit
Limit will initially be disclosed in Your welcome letter and will be
reflected on each periodic statement. You agree to manage your
Account so that your Account Balance (including fees and charges)
is not more than your Credit Limit. However, if your Account Balance
exceeds your Credit Limit, you are still obligated to pay us. We may
increase or decrease your Credit Limit at any time and we may notify
you of such increase or decrease by mail or through a statement
sent to the primary accountholder’s address of record, in accordance
with applicable legal requirements. If you object to any Credit Limit
increase, you must notify us immediately. You or any co-borrower
on the Account may request a change to the Credit Limit orally, in
writing, or electronically, but any such request must be approved by
us. If your Credit Limit is increased, you are immediately responsible
for the new Credit Limit and any increase in the Account Balance
even when it differs from an amount previously agreed to orally or
in writing.
6. ACCOUNT OPENING DISCLOSURE. Please refer to the Platinum
VISA Credit Card Agreement and Disclosure, Part 1 of 2, distributed
with this Agreement, which contains rate, fee, and other cost
information.
7. ANNUAL MEMBERSHIP FEE. None.
8. OTHER FEES. You also agree to pay us:
•

a 1% foreign transaction fee (see section entitled FOREIGN
TRANSACTION FEE AND CURRENCY CONVERSION RATE for
more information about our Foreign Transaction Fee and
currency conversion rate);
3

• A Late Payment Fee of up to $35 or 5% of the delinquent
amount, whichever is less, with respect to any Billing Period if
the Minimum Payment Due is not paid within ten (10) days after
the Payment Due Date. However, the Late Payment Fee will not
exceed the amount of the Minimum Payment Due. For the first
violation in any seven consecutive monthly Billing Periods, the
Late Payment Fee will not exceed $25. You will only have to pay
the Late Payment Fee once on the same late payment.
You authorize us to charge your Account for the fees due to us.
You understand and agree that we have the right, in our sole and
absolute discretion, to change the amount of fees that apply to your
Account, in accordance with applicable law.
9. VISA NON-VARIABLE RATE PROGRAM. We use annual percentage
rates (APRs) to calculate interest charges on your Account. Our Visa
program is a non-variable rate program, which means that your APR
does not increase or decrease except as otherwise provided for in
this Agreement.

Details about your
interest rates and
interest calculations
Purchases
Balance Transfers
Cash Advances

Periodic Rate

0.9083% (M)

Corresponding
Annual Percentage
Rate (APR)

10.90%

(M) = Monthly Periodic Rate. A monthly periodic rate is the APR
divided by 12.
10. INTEREST CALCULATION
Interest charges will be imposed on Transactions only if you elect
not to pay the entire Account Balance shown on your Statement by
the Payment Due Date. If you elect not to pay the entire Account
Balance shown on your Statement by the Payment Due Date, interest
charges will be imposed on the unpaid Average Daily Balance of
Transactions from the previous Statement closing date and on the
new Transactions from the date of posting to your Account during
the current Billing Period, and will continue to accrue until the
closing date of the Billing Period preceding the date on which the
entire Account Balance is paid in full.
We calculate interest on your Account each Billing Period by applying
the Monthly Periodic Rate to the Average Daily Balance (including
new Transactions). The following explains how we do this. To get the
Average Daily Balance:
•

We start with the beginning balance of your account each day.

•

We add any new Transactions, fees and other charges.
4

•

We subtract any credits or payments credited as of that day
and any unpaid interest or other finance charges.

11. GRACE PERIOD.
You will not pay any interest on Purchases if you pay the Account
Balance, including any Balance Transfers, in full by the Payment Due
Date shown on your Statement each Billing Period. We call this a
grace period on Purchases. Generally you will have a 25-day grace
period from the close of each Billing Period to pay the Account
Balance without incurring additional interest. The Payment Due
Date disclosed on each Statement provided to you is the last day
of your grace period for that Statement’s billing cycle. If you do not
pay the Account Balance, including any Balance Transfers, in full by
the Payment Due Date in a Billing Period, you will pay interest on
your Purchases from the date they are posted to your Account. You
also will not have a grace period on Purchases again until you pay
the Account Balance in full by the Payment Due Date two (2) Billing
Periods in a row.
There is no grace period on Cash Advances. This means you will pay
interest on Cash Advances from the date these transactions post to
your Account.
12.

PAYMENTS.

(a) Minimum Payment. Every month, you must pay at least the
Minimum Payment Due by the Payment Due Date shown on
your Statement. The Minimum Payment Due will be either (1)
2.5% of your Account Balance or $15.00, whichever is greater;
or (2) your Account Balance if it is less than $15.00. In addition,
you must pay any amount past due, any late charge and any
amount over the Credit Limit.
Though you need only pay the Minimum Payment Due, you have the
right to repay your Account Balance at any time without penalty.
You must also pay on our demand the amount by which the Account
Balance exceeds the credit limit that we set for your Account.
(b) Time and Place for Payment. All VISA payments are to be
mailed to:
VISA
P.O. BOX 79265
City of Industry, CA 91716-9265
5

Payments may also be made at any of our HawaiiUSA branches. You
must also follow the instructions below when making a payment. If
you do, we will credit the payment to your Account as of the day we
receive it.
•

We must receive your payment on or before the Payment Due
Date in order for your Account to be credited by the Payment
Due Date.

•

You must pay in U.S. Dollars.

•

You must use a check or electronic debit issued by a financial
institution in the U.S. (do not mail cash).

•

You must not send us a check dated after the date that we
receive it.

•

You must not enclose more than one check per envelope.

•

You must not include any restrictive endorsements on the
check.

•

You must follow any additional payment instructions shown on
your Statement.

(c) How Your Payments Will Be Applied. Minimum Payments
will be applied to your Account in the manner chosen by us
subject to applicable law. Any payment amounts above the
Minimum Payment Due will be applied to balances subject
to higher APRs and then to balances subject to lower APRs, in
descending order of APRs until all balances subject to an APR
are paid in full.
(d) Payments Marked “Paid In Full.” We may accept checks,
money orders, or other types of payment marked “payment
in full” or using other language to indicate full satisfaction
of any indebtedness without being bound by such language
or waiving any rights under this Agreement. Full satisfaction
of indebtedness shall be accepted by us only in a written
agreement, signed by an authorized representative.
13. PAYMENTS BY AUTOMATIC TRANSFER: By separate agreement,
you may authorize us to automatically transfer the Minimum
Payment Due from your Credit Union savings or checking account.
If you request payment by automatic transfer, you understand and
agree that no payment will be made if there are insufficient or
uncollected funds in the designated savings or checking account
to make the scheduled payment. Should this event occur, you
understand and agree that you will not be released from making the
payment. Any automatic transfer you have requested will remain
in effect until you cancel it in writing or the Account Balance is paid
in full. To stop a payment by automatic transfer, you may send us a
letter requesting that the payment be stopped. Your letter must be
received by HawaiiUSA Federal Credit Union, Attention: Card Services
Department, 1226 College Walk, Honolulu, HI 96817, at least three
(3) business days before the automatic payment is scheduled to
occur. We may cancel this service at our discretion.
14. RECURRING PAYMENTS: The use of your Account to make
preauthorized electronic recurring bill payments constitutes an
“electronic fund transfer” as defined by the federal Electronic Fund
Transfer Act and Regulation E. You may be able to place a stop
payment on a preauthorized electronic recurring bill payment in
accordance with the terms of our Authorization Agreement for
Preauthorized Payments. Any such stop payment order is subject
to a Stop Payment Fee of $10.00 for each stop payment order you
give. A stop payment/revocation order does not release you from the
obligation to pay for goods and services purchased from merchants.
6

15. RESPONSIBILITY. You agree to repay us according to the terms of
this Agreement for all Transactions, finance charges, late charges, and
other fees arising from the use of the Account by you or any other
person you permit to use the Account, even if that person exceeds
your permission. You must not give anyone else possession of your
Card, PIN, or other authority to make transactions on your Account.
You cannot disclaim responsibility by notifying us, although we will
close the Account if you so request and you will return all Cards to us.
Your obligation to pay the Account Balance continues even though an
agreement, divorce decree, or other court judgment to which we are
not a party may direct you or one of the other persons responsible to
pay the Account.
16. JOINT ACCOUNTS If this is a joint Account, each of you will
be individually and jointly responsible for paying all amounts owed
under this Agreement. This means that we can require any one of
you individually to repay the Account Balance. Each of you authorizes
the other to make Transactions individually. Any one of you may close
the Account and such closure will be effective as to all of you. You
agree that all notices regarding the Account may be sent solely to the
cardholder whose name and address appears on our billing records.
If this is a joint account, neither party can be released from his or
her obligations except upon HawaiiUSA’s approval. Cards remain our
property and you must recover and surrender to us all Cards upon our
request and upon termination of this Account.
17. ACCOUNT USE BY AUTHORIZED USERS: You may request to add
one or more Authorized Users to your Account. If we approve your
request, use of your Account by an Authorized User is subject to the
terms of this Agreement. You must:

obtain from you, any Authorized User and others. It also includes
information about their Transactions on the Account.
CREDIT REPORTING: We report information about this Account to
Consumer Reporting Agencies in the Authorized User’s name that may
appear on their credit report. This could include information about:
• Late Payments;
• Returned Payments;
• Over-the-credit-limit amounts; and
• Other violations of this Agreement.
You understand and agree that you must let each Authorized User
know that we report Account information in his or her name.
18. INTERNET (ONLINE) TRANSACTIONS. We subscribe to Verified
by Visa (VbV). VbV is an enhancement that improves the security of
Purchases made via the Internet by enabling us to verify your Account
ownership during online purchases by using a password. VbV only
relates to Internet Purchases from merchants that also participate in
VbV. If you make Purchases through the Internet, you may register
your Card at www.visa.com, where you will be asked to enter account
information and personal data for identity confirmation. You will
be able to shop at participating VbV Internet merchants with no
changes to the shopping or checkout process. Should you shop at a
VbV participating Internet merchant and have not yet registered your
Card, you may be required to register with VbV before completing
the transaction.

•

Obtain permission from each Authorized User before naming
him or her as an Authorized User on your Account.

19. FOREIGN TRANSACTION FEE AND CURRENCY CONVERSION RATE.

•

Make a copy of this Agreement available to each Authorized
User.

•

Pay us for all charges incurred by each Authorized User.

•

Notify us to remove an Authorized User from your Account. If
we remove an Authorized User, we may close your Account,
open a new Account, and issue you a new Card.

(a) Foreign Transaction Fee. A fee of 1% of the amount of the
transaction, calculated in U.S. dollars, will be imposed on all
foreign transactions, regardless of whether the transaction
involves a currency conversion, including Purchases, Cash
Advances and credits to your Account. A foreign transaction is
any transaction that you complete or a merchant completes on
your Card outside of the United States, with the exception of U.S.
military bases, U.S. territories, U.S. embassies, or U.S. consultants.

We may limit the number of Authorized Users on your Account.
You are responsible for:
•

Any Transactions made by an Authorized User on your Account.

•

Any Transaction made by an Authorized User even if the postdate shown on your periodic statement for that Transaction
occurs after the date you ask us to remove the Authorized User
from your Account.

•

Any Transactions made by others if an Authorized User allows
them to use your Account.

•

Fees and charges resulting from any Transactions made by an
Authorized User or others if an Authorized User allows them to
use your Account.

INFORMATION ABOUT AUTHORIZED USERS: You agree to give us
certain personal information about each Authorized User. You must
let each one know that you will give us that information and you
must have his or her permission to do so. You must have permission
from each one to allow us to share information about him or her
as permitted by applicable law. This includes information we may
7

(b) Currency Conversion Rate. Transactions will be billed to your
Account in U.S. dollars. The conversion to U.S. dollars will be
made in accordance with the Visa operating regulations for
international transactions. The conversion rate to dollars will
be at (i) the range of rates available in wholesale currency
markets for the applicable central processing date, which
rate may vary from the rate Visa itself receives, or (ii) the
government mandated rate, whichever is applicable, in effect
for the applicable central processing date, in each instance,
plus or minus any adjustments determined by the issuer. The
conversion rate may be different from the rate on the day the
transaction took place or the date the transaction posted.
20. PROHIBITION AGAINST USING ACCOUNT FOR MARGIN STOCK.
You agree that you will not use the Account to purchase or carry
margin stock (as defined in Federal Reserve Board regulations).
21. ILLEGAL ACTIVITY. You agree not to use your Card or Account,
directly or indirectly: (1) in a manner that would constitute a
crime under local, state or federal law, or in any illegal activity or
transaction, including without limitation any “racketeering activity”
as defined in 18 USC § 1961; or (2) for any gambling, gaming, betting,
8

